Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  REVIEW OF THE FOOD AND DRUG
   ADMINISTRATION’S COMPUTER
     MONITORING OF CERTAIN
        EMPLOYEES IN ITS
     CENTER FOR DEVICES AND
      RADIOLOGICAL HEALTH




                    Daniel R. Levinson
                     Inspector General

                      February 2014
                      OIG-12-14-01
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
                                             Table of Contents

EXECUTIVE SUMMARY ..................................................................................................... 2
REVIEW OF THE FOOD AND DRUG ADMINISTRATION’S COMPUTER
MONITORING OF CERTAIN EMPLOYEES IN ITS CENTER FOR DEVICES AND
RADIOLOGICAL HEALTH .................................................................................................. 5
I.      FDA’S COMPUTER MONITORING ......................................................................... 5
          Events Prior to Computer Monitoring ....................................................................... 6
          The Decision To Monitor Scientist 1 ......................................................................... 8
          Monitoring Software Used by FDA ......................................................................... 10
          Computer Monitoring of Scientist 1 Begins ............................................................ 11
          The Interim Report of Investigation ........................................................................ 12
          Computer Monitoring of Additional Scientists Begins ........................................... 13
          Procedures Used During FDA’s Computer Monitoring .......................................... 14
          FDA Consultations With OGC ................................................................................ 15
          CDRH Takes Action as a Result of Monitoring ...................................................... 15
II.     FINDINGS .................................................................................................................. 16
III.    RECOMMENDATIONS ............................................................................................ 18
IV.      DEPARTMENT RESPONSE .................................................................................... 20
APPENDIX A: Methodology............................................................................................... 21
APPENDIX B: CDRH and the Premarket Application Process .......................................... 22
APPENDIX C: Applicable Legal Criteria............................................................................ 23
          Reasonableness of a Computer Search .................................................................... 23
          Interception of Electronic Communications ............................................................ 24
          The Whistleblower Protection Act........................................................................... 25
          Prohibitions on the Disclosure of Information by FDA Employees ........................ 25
Appendix D: Department Comments ................................................................................... 27




                                                                                                                       1|Page
EXECUTIVE SUMMARY

        On July 14, 2012, The New York Times reported on computer monitoring by the Food and
Drug Administration (FDA) of certain scientists in FDA’s Center for Devices and Radiological
Health (CDRH). On July 20, 2012, the Secretary of the U.S. Department of Health and Human
Services (HHS) wrote to HHS’s Office of Inspector General (OIG), asking it to consider whether
there was a sufficient basis to conduct the monitoring; to consider whether the methods of
monitoring were appropriate; and to provide recommendations on how HHS can appropriately,
effectively, and efficiently investigate allegations of improper dissemination of confidential
information while protecting employees’ rights and whistleblower protections.
        Between April 2010 and October 2011, the FDA used computer-monitoring software on
the FDA computers of five CDRH scientists. FDA suspected that these employees were sending
trade secrets or confidential commercial information (CCI) outside FDA in possible violation of
FDA regulations and criminal statutes; FDA also was aware that these employees may have held
whistleblower status. During the time immediately prior to and during the computer monitoring,
FDA computer systems displayed a log-on banner that stated that users had no right of privacy in
the system and that all data on the system may be monitored; however, FDA had no policy
governing the approval or conduct of such monitoring.
        During 2009 and 2010, several newspaper articles referenced or quoted internal CDRH
memorandums. One such article, published in The New York Times on March 28, 2010,
referenced a confidential GE Healthcare submission to CDRH and quoted CDRH employee
Scientist 1. 1 Soon after, FDA received a complaint letter from counsel representing GE
Healthcare that alleged that its CCI had been disclosed to the press by CDRH in violation of
Federal regulations and agency policy and asked FDA to investigate. CDRH management
strongly suspected that Scientist 1 was the source of the information in the article because,
among other reasons, he was quoted in the article. CDRH management also suspected that
Scientist 1 was inappropriately ghostwriting reports for his subordinates.
       CDRH’s Director tasked CDRH’s Executive Officer with finding out what options were
available to identify the source of the disclosure to The New York Times and to prevent future
unauthorized disclosures. In order to accomplish this, the CDRH Director instructed the CDRH
Executive Officer to engage with FDA’s Assistant Commissioner for Management and/or with
FDA’s Chief Information Officer (CIO). After the CDRH Executive Officer met with both the

1
  OIG has redacted the names of the five scientists subject to computer monitoring since they may have been entitled
to protections under the Whistleblower Protection Act, even though their names already are known to the
Department. In an abundance of caution and in an effort to avoid the appearance of disclosing the names of
whistleblowers, we refer to them as Scientists 1 through 5.

                                                                                                       2|Page
Assistant Commissioner for Management and the CIO, the CIO, in conjunction with the Chief
Information Security Officer (CISO), proposed investigating the leaks using computer-
monitoring technology. Office of Information Management (OIM) staff arranged to begin
monitoring Scientist 1’s computer and chose the monitoring tools that were used.
        OIM staff chose two computer monitoring tools to investigate Scientist 1. They used
EnCase to image (or copy) the memory of Scientist 1’s FDA computer, which, at times, included
personally owned removable memory drives connected to the FDA network. OIM staff also
chose SpectorSoft (Spector) and installed it on Scientist 1’s computer. Spector captures: (1)
screen shots of a user’s computer every few seconds and (2) the user’s keystrokes, including
keystrokes used to enter passwords.
        Using a short list of search terms developed by CDRH’s Executive Officer, OIM staff
reviewed the screen shots taken of Scientist 1’s computer for potential indications of
unauthorized disclosures outside FDA or ghostwriting. Because Spector takes screen shots of
the information displaying on a user’s computer every few seconds, OIM staff could not scope
Spector to capture only information relevant to the issues CDRH wanted investigated; rather,
OIM staff manually reviewed the tens of thousands of screenshots after they were taken by
Spector to cull out those that appeared relevant to certain search terms concerning unauthorized
disclosures and ghostwriting. Accordingly, while we found no evidence that FDA used Spector
to target specifically the scientists’ communications with any particular person or group, such as
Members of Congress or the media, it is precisely because Spector broadly captured information
that the scientists’ communications with such persons were captured.
       Partly on the basis of information discovered while monitoring Scientist 1’s computer,
CDRH management directed OIM staff to expand Spector and EnCase monitoring to include
four additional CDRH scientists. We found no evidence that during the computer monitoring,
OIM staff logged into any FDA user’s computer in order to gain live access as a user of the
computer or attempt to log into any FDA user’s personal Web-based email accounts. While
Spector captures by default the user’s keystrokes—including keystrokes used to enter
passwords—we found no evidence that anyone at FDA, CDRH, or OIM ever accessed Spector’s
keystroke logs, where such information resides.
        As a result of the computer monitoring, CDRH concluded it had developed evidence that
certain employees had disclosed CCI. In the spring of 2011, CDRH wrote to several companies
that had submitted confidential materials to CDRH to inform them that it had determined that an
employee had made, via email, unauthorized disclosures of their CCI in July or August 2010.
       On the basis of its review, OIG found that despite the reasonableness of CDRH’s
concerns and the explicit language in FDA’s network log-on banner, CDRH failed to fully assess
beforehand, and with the timely assistance of legal counsel, whether the scope of potentially
                                                                                        3|Page
intrusive EnCase and Spector monitoring would be consistent with constitutional and statutory
limitations on Government searches and consistent with whistleblower protections. OIG
recommends that HHS ensure that its operating divisions draft and implement policies and
related procedural internal controls that provide reasonable assurance of compliance with laws
and regulations, particularly those governing current and prospective employee monitoring. In
September 2013, FDA issued an interim computer-monitoring policy that addresses our
recommendations.




                                                                                      4|Page
REVIEW OF THE FOOD AND DRUG ADMINISTRATION’S COMPUTER
MONITORING OF CERTAIN EMPLOYEES IN ITS CENTER FOR DEVICES AND
RADIOLOGICAL HEALTH

        This review responds to the Secretary’s letter dated July 20, 2012, asking the Office of
Inspector General (OIG) to review the monitoring of electronic communications of certain
employees in the Food and Drug Administration (FDA) Center for Devices and Radiological
Health (CDRH). Specifically, the Secretary asked OIG to consider whether there was a
sufficient basis to conduct the monitoring; to consider whether the methods of monitoring were
appropriate; and to provide recommendations on how the U.S. Department of Health and Human
Services (HHS) can appropriately, effectively, and efficiently investigate allegations of improper
dissemination of confidential information while protecting employees’ rights and whistleblower
protections.
        The Secretary’s request refers to the computer monitoring of five individuals at CDRH
that began on April 22, 2010, when FDA installed SpectorSoft monitoring software (Spector) on
the Government-issued computer of Scientist 1. FDA subsequently expanded its monitoring to
the Government-issued computers of Scientist 2, Scientist 3, Scientist 4, and Scientist 5. FDA
also used a product called EnCase to remotely take forensic data images of the individuals’
computer and network memory. Although FDA monitored each individual’s computer usage for
varying lengths of time, FDA had ended its monitoring of all five individuals by October 9,
2011.
       This review is organized into four sections. Section I summarizes events that led to the
computer monitoring and FDA’s conduct of the monitoring, Section II presents OIG’s findings,
and Section III provides OIG’s recommendations. Section IV presents the Department’s
response. Appendixes cover OIG’s methodology, CDRH and the premarket application (PMA)
process for medical devices, the legal criteria relevant to the disclosure of information by Federal
employees and computer monitoring of Federal employees, and the Department’s comments.

I.     FDA’S COMPUTER MONITORING

        This narrative of the facts and events leading to FDA’s computer monitoring, the
deliberation and authorization by FDA management relating to the computer monitoring, and
FDA’s conduct of the monitoring is the result of the interviews and the document review
described in Appendix A. Our review uncovered few inconsistencies among the information
provided by interviewees and obtained from documentation, but where there was ambiguity or
conflict, we note it.


                                                                                         5|Page
      During the time immediately prior to and during the computer monitoring, FDA used a
network log-on banner, which appeared each time an employee logged onto his or her computer,
prompting the employee to press “OK” to continue. 2 It read:
         This is a Food and Drug Administration (FDA) computer system and is provided
         for the processing of official U.S. Government information only. All data
         contained on this computer system is owned by the FDA and may, for the purpose
         of protecting the rights and property of the FDA, be monitored, intercepted,
         recorded, read, copied, or captured in any manner and disclosed by and to
         authorized personnel. USE OF THIS SYSTEM BY ANY USER, AUTHORIZED
         OR UNAUTHORIZED, CONSTITUTES CONSENT TO THIS MONITORING,
         INTERCEPTION, RECORDING, READING, COPYING, OR CAPTURING
         AND DISCLOSURE. THERE IS NO RIGHT OF PRIVACY IN THIS SYSTEM.
         Authorized personnel may give to law enforcement officials any potential
         evidence of crime found on FDA computer systems. Unauthorized access or use
         of this computer system and software may subject violators to criminal, civil,
         and/or administrative action. The standards of ethical conduct for employees of
         the Executive Branch (5 C.F.R. § 2635.704) do not permit the use of government
         property, including computers, for other than authorized purposes.

Events Prior to Computer Monitoring

        On January 13, 2009, The New York Times published an article that included potentially
confidential information from a then-pending 510(k) submission 3 for a mammography computer-
aided detection device from device manufacturer iCAD. 4 CDRH officials stated that these
disclosures were not authorized. Therefore, the disclosures would have been in violation of FDA
regulations. 5 According to information iCAD provided to FDA by letter dated that same day
(the iCAD Letter), the article’s author informed the company that he had received “internal FDA
documents” regarding the device from “scientific officers of the FDA.” The iCAD Letter
enclosed copies of two January 8, 2009, news articles by the Associated Press and The Wall
Street Journal that reported on a letter sent by a group of FDA scientists to then President-Elect
Barack Obama’s transition team complaining that the scientific review process for medical
devices at FDA had been corrupted and distorted by FDA managers and singling out
2
  FDA since has updated the language in its log-on banner to meet OIG recommendations.
3
  CDRH’s PMA process, and the 510(k) process in particular, are described in Appendix B.
4
  Gardiner Harris, In F.D.A. Files, Claims of Rush to Approve Devices, The New York Times (Jan. 13, 2009).
5
  Several statutory and regulatory provisions limit the ability of FDA employees to share agency information with
others outside the agency and are discussed in detail in Appendix C. They include 18 U.S.C. § 1905 (Federal
criminal statute generally limiting disclosures), 21 U.S.C. §§ 331(j) and 333 (additional criminal provisions in the
Federal Food, Drug, and Cosmetic Act that prohibit disclosure of trade secrets (but not confidential business
information) submitted to FDA in accordance with FDA approval processes), and 21 CFR § 814.9 (FDA disclosure
restrictions with respect to PMAs).



                                                                                                         6|Page
mammography computer-aided detection devices as an example of a technology that should not
have gone forward. The iCAD Letter pointed out that The New York Times, and possibly other
media outlets, had obtained material relating to 510(k) submissions on mammography computer-
aided detection devices. The New York Times article quoted from an internal agency
memorandum regarding the pending review of another firm’s premarket 510(k) submission. The
quoted memorandum was a consultation review memorandum on the 510(k) submission that had
been drafted on March 14, 2008 (and updated on March 26, 2008), by CDRH personnel and
addressed to, among others, Scientist 1.
        On October 1, 2009, the Acting Director of CDRH and other CDRH staff participated in
a telephone interview with Wall Street Journal reporter Alicia Mundy, who had co-authored the
January 8, 2009, article enclosed with the iCAD letter. During the call, Ms. Mundy quoted an
internal FDA 510(k) reviewer memorandum that contained what CDRH believed to be CCI, the
disclosure of which is restricted by regulation, or potential trade secrets, the unauthorized
disclosure of which may have constituted violations of criminal statutes. 6 The CDRH Freedom
of Information Act (FOIA) officer later confirmed that this particular reviewer memorandum had
not been requested or released under FOIA.
        On October 1, 2009, CDRH requested an audit of its internal electronic imaging system,
IMAGE, to determine which employees had accessed the files containing the disclosed materials.
The audit identified Scientist 1 as the only person who had accessed the particular files without a
valid reason.
        On March 28, 2010, The New York Times published another article on FDA’s 510(k)
process, which described allegations that FDA downplayed the risks of radiation exposure when
considering applications for the approval of certain uses of radiological devices. The article
stated that “a group of agency scientists who are concerned about the risks of CT scans say they
will testify at [an FDA meeting on how to protect patients from unnecessary radiation exposure]
that FDA managers ignored or suppressed their concerns.…” The article reported that General
Electric (GE) had submitted a 510(k) application and referenced “[s]cores of internal agency
documents made available to the New York Times” pertaining to it. 7 The article quoted
comments made in internal FDA communications by Scientist 1 (see note 1 on page 3) and a
former CDRH contractor in opposition to the GE submission. The article also mentioned
internal discussions from a May 12, 2009, 510(k) premarket review meeting that CDRH believed
to be privileged.



6
    Ibid.
7
    Gardiner Harris, Scientists Say F.D.A. Ignored Radiation Warnings, The New York Times (Mar. 28, 2010).

                                                                                                      7|Page
        On April 16, 2010, FDA received another complaint letter, this time from counsel
representing GE Healthcare (the GE Letter). The GE Letter expressed disappointment in CDRH
for disclosing to the press CCI contained in a 510(k) submission for a GE Healthcare device used
in CT (computed tomography) colonography screening. The GE Letter asserted that “CDRH
was not permitted to publicly disclose either the existence or the contents of GE Healthcare’s
510(k) submission, so in disclosing this information, CDRH breached the confidentiality of GE
Healthcare’s submission in violation of both federal regulations and internal agency policy.”
The GE Letter requested that FDA conduct an investigation of the leak.

The Decision To Monitor Scientist 1

        According to the CDRH Executive Officer, Scientist 1 was selected for computer
monitoring in part because he was named in the March 28, 2010, New York Times article, which
was referenced by and enclosed with the GE Letter. (The other FDA scientist named in the
article was no longer an employee of CDRH at the time the GE Letter was received.) In
addition, the audit requested by CDRH on October 1, 2009, of FDA’s internal IMAGE System
had identified Scientist 1 as the only person who had accessed the particular files without a valid
reason.
        On April 21, 2010, CDRH’s Executive Secretariat brought the GE Letter to the attention
of CDRH’s Executive Officer, who shared a copy with the CDRH Director. The CDRH Director
directed CDRH’s Executive Officer to find what options were available to identify the source of
the unauthorized disclosure and to prevent future disclosures. The CDRH Director also told her
to share the GE Letter with FDA’s Chief Information Officer (CIO) in FDA’s Office of
Information Management (OIM) and FDA’s Assistant Commissioner for Management. 8 The
CDRH Director instructed the CDRH Executive Officer to meet with the Assistant
Commissioner for Management and/or the CIO to discuss the unauthorized disclosures. The
CIO, in conjunction with the Chief Information Security Officer (CISO) and others, arranged to
begin monitoring Scientist 1’s computer. The CDRH Director was told about this monitoring at
the time and approved it. It does not appear that any other response, apart from computer
monitoring, was considered.
        The CISO and the CDRH Executive Officer met with the Team Leader for Incident
Response at Chickasaw Nation Industries, Inc. (CNI), (the CNI Team Leader), an information
security contractor for FDA, to explain CDRH’s concern that Scientist 1 was disseminating
information outside the FDA network. According to the CNI Team Leader, CDRH also was


8
 Additional FDA officials, including the Chief Counsel of FDA and the Special Agent in Charge (SAC) of FDA’s
Office of Internal Affairs also received copies of the GE Letter.

                                                                                                  8|Page
concerned that Scientist 1 was improperly preparing official CDRH reports in the names of other
CDRH scientists (or ghostwriting them), on the basis of complaints from the other scientists’
supervisors. The group discussed how to implement the CIO’s monitoring directive to
investigate these allegations.
        At the time, neither HHS, FDA, nor CDRH had implemented a policy governing the
computer monitoring of employees designed to ensure compliance with limits on Government
searches of Government employees, such as the Fourth Amendment, the prohibition on
intercepting electronic communications (Title III of the Omnibus Crime Control and Safe Streets
Act (Title III)), and the protections in the Whistleblower Protection Act (WPA). 9 The only
guidance issued by FDA that governed computer monitoring was FDA’s Forensic & Incident
Response Procedures Manual, which is a technical document based on technical guidance from
the Department of Commerce’s National Institute of Standards and Technology. It does not
provide guidance to managers on how to conduct investigations, office searches, or computer
monitoring.
         During the meeting, the CDRH Executive Officer gave the CNI Team Leader a piece of
paper listing search terms she had developed. This page of notes established the parameters for
the initial computer monitoring of Scientist 1. The page read:
         Search terms:
         Colonography
         K followed by a string of numbers 10
         It is possible that the employee had “ghost written” for the following employees:
         [Scientist 3]
         [Scientist 2]
         [Scientist 4]
         [Name Redacted]
         [Name Redacted]
         [Scientist 5]

9
  As described more fully in Appendix C: (1) the Fourth Amendment requires that Government searches of
Government employees be justified in their inception and permissible in scope; (2) Title III establishes criminal
penalties for the interception of electronic communications absent an applicable exception; and (3) the WPA
prohibits retaliation against a Government employee for disclosure of evidence of violations of law or regulation,
waste and abuse, or a specific danger to the public health. Other statutes, such as the Privacy Act, may also impose
limits on such monitoring.
10
   “K followed by a string of numbers” refers to Premarket Notification filings in accordance with section 510(k) of
the Federal Food, Drug and Cosmetic Act, in which such filings are labeled with “K” followed by a series of digits.



                                                                                                        9|Page
        The list of employees identified as possible recipients of Scientist 1’s ghostwritten
material was based on complaints by their supervisors that work they were turning in was not
their own.

Monitoring Software Used by FDA

         Around the same time, the CISO met with the CNI Team Leader to discuss available
software tools that could be used to carry out the computer monitoring. FDA ultimately chose
two tools to monitor computer usage of the scientists: SpectorSoft (Spector) and EnCase.
Spector monitors a user’s ongoing computer activity by capturing screen shots at a set interval
(for example, every 5 or 10 seconds) and recording keystroke data. Spector cannot be used to
see a user’s activity in real time; rather, it displays static screen shots that it has captured. The
CNI Team Leader believed Spector was the best tool to use in this situation because it was
responsive to concerns of ongoing data exfiltration. The CNI Team Leader stated it is generally
impossible to find evidence of transmissions of data beyond the FDA network that occurred in
the past because individuals typically use personal Web-based email to communicate and
transmit such data. 11 He also stated that OIM could remotely install Spector on a computer that
is part of the FDA network without the individual’s knowledge and that Spector would transmit
its data to the Incident Response team.
        Spector captures by default the user’s keystrokes—including, but not limited to,
keystrokes for passwords. The member of CNI’s Incident Response Team (the CNI Team
Member) ultimately assigned the computer-monitoring project stated that no one else at CNI
ever looked at the keystrokes. Furthermore, he knew that no one at FDA looked at the
keystrokes either, because only he was in a position to provide access to the keystroke logs and
he never received such a request. The CNI Team Member told OIG that during the monitoring,
CNI staff never logged into an FDA user’s asset to gain live access as a user of the asset, nor did
the CNI Team Member attempt to log into any FDA user’s personal Web-based email accounts.
Similarly, the CNI Team Leader told OIG that during the computer monitoring, he and his team
members never physically or remotely controlled anyone else’s computer.
       Screen shots that CNI identified as showing potential indications of ghostwriting or
unauthorized disclosures outside FDA were shared with CDRH for further review. CDRH’s then
Associate Director, Office of In Vitro Diagnostic Device Evaluation and Safety, was given
primary responsibility for reviewing these selected screen shots to look for CCI or trade secrets



11
 OIM staff told OIG that no tool available to FDA at the time could re-create communications over earlier non-
FDA Web-based email because Web-based e-mail leaves very few traces behind on a user’s computer.

                                                                                                    10 | P a g e
being sent outside FDA, because she had subject matter expertise on the medical devices that
CRDH reviews.
        EnCase is a retrospective tool that can remotely create a forensic data image of a hard
drive or other computing asset. EnCase was not able to easily show whether data that existed on
an FDA asset had been transmitted beyond the network. However, FDA used EnCase to take an
image of the scientists’ computers and network memory several times, usually in an attempt to
recover something seen on a Spector screen shot relevant to unauthorized disclosures or
ghostwriting, such as an email attachment that appeared likely to contain CCI. When CDRH
requested a document, such as an e-mail attachment, CNI staff used EnCase to recover the file
and then transferred the attachment and any other files to CDRH via an encrypted FDA USB
storage device.

Computer Monitoring of Scientist 1 Begins

       On April 22, 2010, the CNI Team Leader remotely installed Spector on Scientist 1’s
Government-issued laptop. The CNI Team Leader subsequently assigned the project to a
subordinate, the CNI Team Member, giving him a page of “specifications” he had drafted
together with the page of search terms drafted by the CDRH Executive Officer. The CNI Team
Member described them as a text file containing “directions and guidance for the FDA task,” but
FDA did not provide a copy of the specifications to OIG.
       On April 23, 2010, FDA’s Assistant Commissioner for Management informed FDA’s
Office of Criminal Investigations (OCI) about the GE Letter allegations, and OCI advised that it
believed the issue should be referred to OIG because the individual alleged to have made the
disclosure was also involved in a series of ongoing whistleblower/Qui Tam issues with CDRH.
        OCI opened a case regarding the allegations in the GE Letter on May 14, 2010, and, by
letter dated the same day, wrote OIG’s then-Assistant Special Agent in Charge of OIG’s Special
Investigations Branch requesting that it investigate the allegations in the GE Letter. On May 18,
2010, OIG responded that it would take no action because the referral lacked evidence of
criminal conduct and noting that the disclosures implicated the WPA. 12 In the meantime, FDA

12
  On June 28, 2010, after Spector had been installed on Scientist 2’s computer and 2 days before it would be
installed on the remaining scientists’ computers, CDRH renewed its request that OIG open an investigation, on the
basis of evidence it gathered during its computer monitoring, including “documents suggesting that employees are
engaged in the inappropriate, and likely illegal, disclosure of nonpublic information.” In response, OIG opened an
investigation on July 31, 2010, and, after completing its review, presented the matter to the U.S. Department of
Justice, where prosecutors reviewed the matter and declined prosecution. By letter dated November 15, 2010, OIG
notified the CDRH Director that it had closed its investigation, noting that prosecutors declined prosecution and
“[y]our office indicated it had developed sufficient evidence to address the alleged misconduct through
administrative processes, and as such, no further action will be taken by OIG.”

                                                                                                     11 | P a g e
had already initiated its monitoring of Scientist 1 (OIM installed Spector on Scientist 1’s laptop
on April 22, 2010). 13
       On May 17, 2010, FDA used EnCase for the first time to obtain a snapshot of the
contents of Scientist 1’s computer hard drive and attached external memory devices. For
example, CNI staff recalled an EnCase analysis it performed of a non-FDA thumb drive
belonging to Scientist 1 that was plugged into an FDA computer. However, it appears EnCase
also was used to conduct searches unrelated to anything identified through Spector. Additional
EnCase snapshots were taken several times before the writing of the Draft OGC Memo.

The Interim Report of Investigation

        On or about June 3, 2010, the CNI Team Member authored a summary of the computer
monitoring captioned “Subjects of Interest,” which he transmitted to FDA’s CIO under a cover
memo captioned, “Interim Report of Investigation.” The cover memo characterized the
allegations presented to the FDA Security Department as follows:
        •   “Ghost writing HIS subordinates’ reports, in particular those surrounding those
            reports that are identified by the letter ‘K’ followed by six (6) numbers.”
        •   “[Scientist 1] communicating with external news sources (press) regarding HIS
            concerns over the FDA’s approval process of particular medical devices surrounding
            CT scans and Colonography. This allegation particularly related to Gardiner Harris,
            reporter for the New York Times.”
        The cover memo added that “[t]he analytical findings to date appear to support the
allegations, however the review is ongoing and substantial volumes of data are currently being
culled.”
        The report summarized data and communications identified by looking at 2 weeks’ worth
of Spector screen shots. The report contained four categories of “subjects”: primary, secondary,
ancillary, and media outlet. The “primary” subjects were individuals within FDA with the
highest frequency of communication regarding improper release of confidential information or
ghostwriting. The “secondary” subjects referred to individuals within the agency with
substantive communications about the search term issues at any frequency level. “Ancillary”
subjects referred to individuals outside the agency with any communications about the search
term issues and included a Member of Congress and Congressional staff. “Media outlet”
subjects referred to members of the media with any communications about the search term

13
  A draft Office of the General Counsel (OGC) legal memorandum (Draft OGC Memo), discussed more fully
below, mistakenly asserts that CDRH began its computer monitoring of Scientist 1after OIG’s May 18, 2010,
response.

                                                                                                  12 | P a g e
issues. This report did not indicate—and we found no evidence—that the monitoring was
implemented in a manner specifically designed to capture communications with Congress, as has
been alleged to HHS.
       The report characterizes the primary subjects (Scientist 1, Scientist 2, and a former
CDRH employee) as follows: “The above listed subjects appear to be the point men. All
communications amongst all the subjects filter through one or all of these three primary
subjects.”
        Scientist 3, Scientist 4, and Scientist 5 were included on the list of secondary subjects; the
report summarizes their communications as follows:
        The secondary subjects listed above are in constant communication amongst
        themselves and the primary subjects via FDA email, Yahoo Mail and Gmail.
        Communications involve review, editing, compilation, production or distribution
        of verbiage, documentation, and information pertaining to medical reviews,
        current investigations, claims against HHS/FDA, release of information to the
        press and external organizations.

       The report included hyperlinks labeled “View All instances of the above noted in order
by date” that linked to screen shots showing some of the data the report identified.

Computer Monitoring of Additional Scientists Begins

        Partly on the basis of information discovered while monitoring Scientist 1, including
email contacts between Scientist 1 and others, CDRH’s Executive Officer told OIM staff to
expand the monitoring, and Spector then was installed on additional FDA computers used by
Scientist 2 (on May 24, 2010) and Scientist 3, Scientist 4, and Scientist 5 (all on June 30, 2010).
         According to CDRH’s Executive Officer, the decision to expand the monitoring was a
group decision made by her, the CIO, the Assistant Commissioner for Management, CDRH’s
then Associate Director, Office of In Vitro Diagnostic Device Evaluation and Safety, and
others. 14 We found no evidence that this group considered employing any investigative
technique other than computer monitoring.
      On June 25, 2010, an OGC attorney discussed expanding the monitoring in an e-mail to
FDA’s Chief Counsel. “[Attorney to attorney communication redacted.]”
       In the CDRH Director’s June 28, 2010, letter to OIG (discussed in footnote 11
above), the CDRH Director described what was discovered during the monitoring:

14
  CDRH’s then Associate Director, Office of In Vitro Diagnostic Device Evaluation and Safety, disputed her
involvement in computer-monitoring decisions, stating she did not know who at FDA was being monitored.

                                                                                                   13 | P a g e
“Specifically, [the documents discovered during the computer monitoring] show that the
employee at issue and other employees have recently disclosed nonpublic information to
at least one former FDA employee…. We have also discovered e-mails that the
employee in question sent to unauthorized recipients which appear to have attachments
likely containing confidential commercial information.…”
          A July 25, 2010, email from the CDRH Director to the Deputy FDA Commissioner
stated:
          …after several weeks of monitoring IT security and FDA technical experts
          identified several instances in which [Scientist 1] provided confidential
          information about medical devices under review to [a former FDA scientist] when
          [that former FDA scientist] was no longer an FDA employee. In some instances
          the medical devices did not pertain to [this former FDA scientist’s] area of
          expertise. Other CDRH employees were participants in these email exchanges.
          As a result, FDA expanded its monitoring to the computers of four other CDRH
          staff who were parties to the disclosure of confidential information.

Procedures Used During FDA’s Computer Monitoring

        As discussed above, screen shots that CNI staff identified as showing potential
indications of ghostwriting or unauthorized disclosures were shared with CDRH’s then Associate
Director, Office of In Vitro Diagnostic Device Evaluation and Safety, for further review. The
then Associate Director also made written lists of filenames of monitored emails and screen shots
that appeared to contain CCI or details of internal processes being sent outside the FDA
computer network and gave these lists to CDRH’s Executive Officer asking her to confirm with
FOIA experts whether the information identified as CCI was actually CCI. The then Associate
Director identified some of the emails as going to individuals who no longer worked for FDA, as
well as Members of Congress; when she talked to the CDRH Director about information going
outside FDA, he expressed his understanding that employees have the right to share CCI with the
press if they think there are immediate, urgent public health concerns that are being ignored by
FDA.
        As with Scientist 1, FDA used EnCase to take images of the other scientists’ computers
and network memory several times, usually in an attempt to recover something seen on a Spector
screen shot. For instance, CNI staff used EnCase after it observed that numerous potential FDA
files were being copied and transferred to a thumb drive docked into Scientist 3’s FDA computer
(when a thumb drive is docked into an FDA asset, the thumb drive becomes part of the FDA
network).


                                                                                     14 | P a g e
FDA Consultations With OGC

        With no agency policies in place, FDA and CDRH officials had no written guidance to
follow to ensure that any computer monitoring would be conducted in accordance with
applicable laws and in a manner that protected the rights of employees. 15 We found no evidence
of consultation between FDA and OGC prior to the decision to conduct computer monitoring of
Scientist 1 in April 2010. FDA stated that after monitoring began, OGC was consulted on a June
2010 draft referral from CDRH to OIG on issues related to computer monitoring. Also in
approximately June 2010, a staff attorney in the OGC Food and Drug Division (FDD), at the
direction of the Associate General Counsel of FDD, wrote a legal memorandum (the Draft OGC
Memo), which addressed some of the legal issues raised by the computer monitoring. 16
       The Draft OGC Memo is relevant to our review, even though the latest version of it was
dated July 8, 2010—several weeks after the initiation of the computer monitoring of Scientist
1—because it is the only document from an attorney provided to OIG evidencing FDA’s and
CDRH’s understanding of the applicability of legal limits on the conduct of searches of
Government employees. The legal advice provided in the memorandum was limited in scope
and did not address the applicability of all the relevant laws to all the targeted scientists.

CDRH Takes Action as a Result of Monitoring

        As a result of the information collected during the monitoring, Scientist 1 was put on
administrative leave on July 7, 2010, and his term appointment expired on July 31, 2010.
Scientist 4 was given advance notice of removal from Federal service on December 6, 2010, for
unauthorized release of agency information; however, Scientist 4 was temporarily reappointed on
February 17, 2012, and her reappointment remained effective through September 25, 2013.
Scientist 3’s appointment was not renewed as of November 6, 2010. Scientist 2, who was a
Commissioned Corps officer, was directed to nonduty with pay status on May 5, 2011, and was
formally terminated from the Commissioned Corps on October 9, 2011. Scientist 5 remains
employed by CDRH.



15
   FDA published and periodically updated a Forensic & Incident Response Procedures Manual; however, this
manual is a technical document largely based on technical guidance from the Department of Commerce’s National
Institute for Standards and Technology. It does not provide guidance to FDA managers on how to conduct
investigations, office searches, or computer monitoring.
16
   According to FDA, the Draft OGC Memo was never finalized. FDA told us that it does not know why it was not
finalized and that, since the Associate General Counsel of FDD (who directed preparation of that memorandum) no
longer works in OGC, FDA would speculate as to neither the reasons for directing preparation of it nor the way in
which it was used. During our review, OIG saw several iterations of this memorandum. The Draft OGC Memo is
marked “privileged and confidential – attorney work product.”

                                                                                                    15 | P a g e
        In four letters sent in March and April 2011, CDRH wrote to companies with business at
CDRH to inform them that CDRH had determined that one of its Office of In Vitro Diagnostics
employees had made unauthorized disclosures of their CCI in July or August 2010 via email. In
each letter, CDRH apologized and made assurances that it had taken appropriate administrative
action.

II.    FINDINGS

        We found that CDRH had reasonable concern that confidential information, including
possibly trade secrets and/or CCI, had been disclosed by agency employees without
authorization. This concern was reasonable largely because news reports cited internal agency
documents and agency scientists as sources of the confidential information. Indeed, by the
spring of 2011, CDRH was sufficiently certain that its investigation had turned up evidence of
such unauthorized disclosures that it sent letters of apology to several device manufacturers.
       We also found that FDA had provided notice to its scientists (and all other users of its
network) through a network log-on banner that there was no right to privacy on the FDA
computer network and that all data on the network were subject to interception by FDA.
Consistent with the banner, FDA monitored the scientists’ communications over FDA’s network
using computer-monitoring technology that captured communications from both their
Government and personal email accounts. In our interviews of those conducting the computer
monitoring and our review of other data sources, we found no evidence that FDA had obtained
or used passwords to any of the scientists’ private email accounts, nor did we find any evidence
that FDA logged into any of the scientists’ computers in order to gain live access as a user of the
computer. The images of private emails that FDA obtained were captured by screen shots taken
by Spector of the scientists’ use of the FDA network.
        Because there was no policy in place at FDA or CDRH to ensure compliance with
applicable laws and restrictions, such as the Fourth Amendment, Title III, and the WPA, it was
particularly important for FDA and CDRH to ensure that it understood the full extent of the
limits on the agency and the rights of its employees. However, we found no evidence that FDA
or CDRH planned its investigation or scoped the monitoring with the timely assistance of
counsel, who could have advised FDA and CDRH prior to the monitoring on compliance with
relevant requirements, such as the Fourth Amendment, criminal prohibitions on the interception
of electronic communications, and the WPA; there was no policy in place at FDA or CDRH to
ensure compliance with these requirements.
        The legality of the surveillance under these authorities currently is being litigated, and we
are not prejudging the outcome. Nevertheless, we find that despite the reasonableness of
CDRH’s concerns and the explicit language in FDA’s network banner, CDRH should have

                                                                                         16 | P a g e
assessed beforehand, and with the assistance of legal counsel, whether potentially intrusive
EnCase and Spector monitoring would be the most appropriate investigative tools and how to
ensure that the use of these tools would be consistent with constitutional and statutory limitations
on Government searches.
       For instance, in the absence of existing guidance, CDRH should have considered, and
sought legal counsel on, the following in advance of the monitoring:
     1. Did the leaked information implicate criminal prohibitions or merely regulatory ones?
        (This question is relevant to both the permissibility of the monitoring under the Fourth
        Amendment and to the applicability of the WPA. See Appendix C.)
     2. Was FDA’s network log-on banner sufficient to remove all the scientists’ REP, and
        would the use of EnCase or Spector constitute a search that was justified at its inception
        and that was of permissible scope? 17
     3. Were the five scientists whistleblowers under the WPA, and if so, how should the
        surveillance be conducted to ensure that there would be no WPA-prohibited retaliation? 18
     4. Was Title III applicable, and if so, did the surveillance fall under an applicable
        exception?
         We found no evidence that CDRH or FDA considered these legal questions before
initiating surveillance. The only documented legal analysis, namely the Draft OGC Memo, was
prepared after the surveillance already had begun. While recognizing that the Draft OGC Memo
was just that—a draft—it is one of few indications of any contemporaneous consultation with, or
consideration by, FDA counsel.
       Another indicator of the lack of adequate consideration of the implications of the Fourth
Amendment, in particular, is the lack of documentation supporting both the reasons why EnCase
and Spector—both of which broadly capture information—were determined to be the most
appropriate tools and the manner in which the EnCase and Spector searches were scoped.
Specifically, we found that the discussion of what investigative technique to use and how to
scope the monitoring was limited largely to technical discussions with information technology
17
   Courts have established that a sufficiently broad network banner can eliminate a Government employee’s REP. It
is important to note, however, that soon after FDA began its computer monitoring, the United States Supreme Court
decided City of Ontario v. Quon, in which the Court’s Fourth Amendment analysis bypassed the question of REP
altogether and concluded the search was legal after applying the two-part test that the search be justified at its
inception and permissible in scope. This suggests that a prudent agency would ensure that any monitoring would be
of permissible scope under O’Connor v. Ortega (see Appendix C), even in cases when the monitored employee has
no REP.
18
   In the wake of revelations about FDA’s monitoring of its scientists, the Office of Special Counsel (OSC) issued
guidance to Federal agencies stating that “agency monitoring specifically designed to target protected disclosures to
the OSC and IGs is highly problematic.”

                                                                                                       17 | P a g e
professionals about the available surveillance technology. In addition, neither CDRH nor FDA’s
OIM staff could produce or recall the substance of the specifications on how to implement the
Spector monitoring that were provided by the CNI Team Leader to his subordinate conducting
the monitoring. Similarly, although OIG was able independently to identify search terms applied
when CDRH used EnCase to search for relevant material on the scientists’ computers, we found
no document that explained the relevance of these search terms. The absence of documentation
concerning scoping decisions makes it difficult to evaluate the reasonableness of these computer
searches.
         Because CDRH and FDA did not prospectively assess the relative risks involved in
whether or how to conduct investigations of potential whistleblowers, such as ensuring that their
investigations were conducted in accordance with laws and regulations, the computer monitoring
of the five scientists had significant negative consequences for FDA. A timely, fuller, and better
documented consideration of all of these risks may have provided the agency greater protection
from controversy, while demonstrating the agency’s commitment to protecting its employees’
rights. 19

III.     RECOMMENDATIONS

        HHS should ensure that its operating divisions (OpDivs) draft and implement policies
and related procedural internal controls that provide reasonable assurance of compliance with
laws and regulations, particularly those governing current and prospective employee monitoring.
At a minimum, the internal controls concerning electronic monitoring of employees 20 should
address:
         •        the agency’s authority to monitor employee communications or access employee
                  files;
         •        protection of the rights of employees and the extent of an employee's expectation
                  of privacy while using agency IT resources;
         •        specific conditions for requesting access to employee communications;
         •        defined roles and responsibilities for initiating, reviewing, and approving requests
                  to access employee communications and data; and

19
   On June 17, 2013, all HHS employees received an email both describing the Department’s authority and ability to
monitor the electronic activities that take place on its networks and equipment and notifying employees of the laws
in place to protect Federal employees who reveal instances of waste, fraud or abuse within the Federal Government,
commonly referred to as the “Whistleblower Protections laws.” The email included a notice regarding the
Whistleblower Protection Enhancement Act of 2012.
20
   This includes, but is not limited to, current and former Federal employees, contractors, interns, and visitors that
are provided access to HHS information technology and data.

                                                                                                        18 | P a g e
        •        retention of records that document the initiation, review, and approval of
                 electronic monitoring, including opinions and recommendations of legal counsel.
         At the time of FDA’s investigation of the five scientists, neither the Department, FDA,
nor CDRH had policies or procedures in place that governed the monitoring of agency
employees’ use of Government IT resources. After public revelations that FDA had monitored
its employees, HHS implemented a Department-wide policy regarding such computer
surveillance. Issued on June 26, 2013, HHS’s “Policy for Monitoring Employee Use of HHS IT
Resources” requires that its agencies “establish policies and procedures that will strengthen the
ability to effectively document, analyze, authorize, and manage requests for HHS employee
computer monitoring.” The policy states that “[w]hile the warning banner gives OpDivs the
authority to monitor employee use of IT resources, it is each OpDiv’s responsibility to carry out
monitoring in a fashion that protects employee interests and ensures the need for monitoring has
been thoroughly vetted and documented.” The policy gave the agencies, including FDA, 90 days
to develop and deliver written policies and procedures that meet requirements laid out in the
HHS policy. These requirements include, among other things: maintaining advanced written
authorization of any computer monitoring, consulting with OGC to ensure the proposed
monitoring complies with all legal requirements, and documenting the basis for approving
requests to conduct computer monitoring.
        FDA issued its interim computer-monitoring policy on September 26, 2013. In
particular, the FDA’s interim policy:
            •    establishes procedures requiring authorization by senior management and
                 consultation with legal counsel;
            •    distinguishes between monitoring conducted at the behest of law enforcement and
                 monitoring conducted for management purposes to minimize interference with
                 law enforcement investigations;
            •    requires monitoring to be narrowly tailored in time, scope, and degree to
                 accomplish the monitoring’s objectives; and
            •    requires that the authorization describe the reason, factual basis, and scope of the
                 monitoring.
       Given this, FDA’s interim policy addresses our five recommendations outlined above. 21
HHS should determine whether all other individual OpDiv policies meet our recommendations
above. HHS also should regularly review and, as necessary, update its Department-wide

21
   We note that both the HHS policy and the FDA policy are ambiguous with respect to their applicability to
circumstances in which the misconduct being investigated might not violate a written policy. HHS and FDA should
ensure that their managers have adequate guidance in such cases.

                                                                                                  19 | P a g e
monitoring policies to ensure they are compatible with new and emerging technologies and
methodologies. Information technology is continually changing, and a static monitoring policy
could fail to address key implementation issues as capabilities evolve.

IV.    DEPARTMENT RESPONSE

        HHS concurred with all of the recommendations in this report. See Appendix D for the
full text of HHS’s comments. HHS also offered technical comments that we incorporated as
appropriate.




                                                                                   20 | P a g e
APPENDIX A: Methodology

       This review was conducted by a 12-member team (the Review Team) composed of
individuals from OIG’s Immediate Office, Office of Audit Services, Office of Counsel to the
Inspector General, Office of Evaluation and Inspections, Office of Investigations, and Office of
Management and Policy.
        We interviewed current and former employees of FDA for this report, including the
CDRH Director, the CDRH Executive Officer, the then Associate Director in CDRH’s Office of
In Vitro Diagnostic Device Evaluation and Safety, the FDA OCI Office of Internal Affairs SAC,
an OCI Office of Internal Affairs Assistant SAC, and FDA’s former Chief Information Security
Officer during the relevant time period. We also interviewed two employees of CNI, an FDA
contractor: the CNI Team Leader and the CNI Team Member.
       We were unable to interview certain individuals with information relevant to our review.
FDA’s former CIO, who is no longer in Federal service, declined through counsel to speak with
the Review Team. Similarly, an attorney collectively representing the five scientists subject to
computer monitoring did not respond to our repeated information requests.
         The Review Team also collected information and documents from FDA on topics that
included policies regarding the use of software to engage in computer surveillance of FDA
employees, surveillance software files and logs, and consultations FDA engaged in prior to
initiating monitoring. In all, we received more than six terabytes of information that included
documents, emails, and screen shots.

       Throughout this document, when an assertion is made, it is based on information
gathered from witness interviews and other evidence reviewed by the Review Team.




                                                                                       21 | P a g e
APPENDIX B: CDRH and the Premarket Application Process

         CDRH is responsible for ensuring the safety and effectiveness of medical devices.
Devices vary in complexity and application, ranging from simple tongue depressors to complex
pacemakers. CDRH assigns each type of device one of three regulatory classifications (Class I,
II, or III), which are based on the level of control needed to ensure the safety and effectiveness of
the device for patients and other end users. Regulatory control increases from Class I to Class
III. A device’s risk classification determines its premarket review process. 22
       CDRH must approve Class III medical devices prior to their marketing under either the
Premarket Approval process or the Premarket Notification (the latter is referred to as “510(k)”)
process. Premarket Approval review is the most stringent process for obtaining FDA approval to
market a device and is required by statute for devices that support or sustain human life, are of
substantial importance in preventing impairment of human health, or present a potentially
unreasonable risk of illness or injury. 23
         If a Class III device is not required to undergo Premarket Approval, the manufacturer
must submit to CDRH a 510(k) application. The 510(k) is a faster and less stringent premarket
review process than Premarket Approval. Submissions under the 510(k) process must
demonstrate that a device to be marketed is substantially equivalent to a predicate device that is
already legally marketed in the United States. 24 CDRH determines a device is substantially
equivalent to a predicate device if the 510(k) submission demonstrates that it has the same
intended use and technological characteristics as the predicate. A device with technological
characteristics that differ from the predicate device may also be declared substantially equivalent
if the information in the 510(k) submission demonstrates that the device is at least as safe and
effective as the predicate and does not raise new questions of safety and effectiveness. 25
        Scientists who are either CDRH staff or contract employees determine which regulatory
class a device falls into, whether a device should be reviewed under the Premarket Approval or
510(k) process, and whether a device should be approved, or cleared.




22
   See 21 C.F.R. § 860.3.
23
   See the Federal Food, Drug, and Cosmetic Act §§ 515(a) and 513(a)(1)(C), 21 U.S.C. §§ 360e(a) and
360c(a)(1)(C).
24
   See 21 CFR § 807.92(a)(3).
25
   FDA, CDRH, Guidance on the CDRH Premarket Notification Review Program 6/30/86 (K86-3), 510(k)
Memorandum #K86-3.

                                                                                                22 | P a g e
APPENDIX C: Applicable Legal Criteria

       The FDA scientists’ communications with outside entities and FDA’s computer
monitoring implicate a variety of legal restrictions relating to disclosure of information and to
privacy. This appendix summarizes those legal principles, which are relevant to determining
whether the conduct of the FDA scientists provided a sufficient legal basis for FDA to engage in
the computer monitoring in the manner and scope that it did.

Reasonableness of a Computer Search

       The Fourth Amendment’s protections against unreasonable searches and seizures apply
where an individual has REP. Without REP, a search by the Government is not a search for the
purposes of the Fourth Amendment. Where there is REP, the Government generally must have
probable cause and obtain a warrant for a search to be reasonable. In general, Government
employees who are notified that their employer has retained rights to access or inspect
information stored on the employer’s computers can have no REP in the information stored
there.
       The Supreme Court’s decision that governs the constitutionality of a search in a
government office is O’Connor v. Ortega, 480 U.S. 709 (1987). In Ortega, the Supreme Court
describes the factors for determining REP:
       Individuals do not lose Fourth Amendment rights merely because they work for
       the government instead of a private employer. The operational realities of the
       workplace, however, may make some employees’ expectations of privacy
       unreasonable when an intrusion is by a supervisor rather than a law enforcement
       official. Public employees’ expectations of privacy in their offices, desks, and file
       cabinets, like similar expectations of employees in the private sector, may be
       reduced by virtue of actual office practices and procedures, or by legitimate
       regulation.

Ortega, 480 U.S. at 717.
       Therefore, whether the scientists had REP in their use of FDA computer resources —
such as computer hard drives, external memory devices, and network storage — is determined on
a case-by-case basis and will be influenced by such facts as the presence and wording of FDA’s
network banner.
       Where a public employee has REP, there are several exceptions to the probable cause and
warrant requirements. Among these is the exception for workplace searches conducted for
purposes unrelated to the enforcement of criminal laws. The Supreme Court held in Ortega that
“public employer intrusions on the constitutionally protected privacy interests of government

                                                                                       23 | P a g e
employees for non-investigatory, work-related purposes, as well as for investigations of work-
related misconduct, should be judged by the standard of reasonableness under all the
circumstances.” Further, the search must be justified at its inception and permissible in scope. A
search is justified at its inception if there are reasonable grounds, based on all of the
circumstances, for suspecting that the search will (1) turn up evidence that the employee engaged
in work-related misconduct or (2) that the search is necessary for a noninvestigatory work-
related purpose, such as to retrieve a file when the employee is not available. It is permissible in
scope where the measures adopted are reasonably related to the objectives of the search and not
excessively intrusive in light of the nature of the misconduct. Ortega, 480 U.S. at 726. The
measures, however, need not be the least intrusive measures practicable. 26
        It is important to note that in one of the Supreme Court’s recent consideration of a
workplace search of a Government employee’s use of agency information resources, the Court
avoided the question of REP altogether and proceeded to apply the two-part test that the search
must be justified at its inception and permissible in scope. 27 Because of the uncertain or
speculative nature of REP determinations, application of the two-part test in all circumstances
prior to the initiation of a workplace search, such as computer surveillance, could help limit the
Government employer’s litigation vulnerability.

Interception of Electronic Communications

        FDA’s computer monitoring potentially implicates criminal prohibitions on the
interception or acquisition of electronic communications without process because Spector
captured images of e-mails being prepared or dispatched by the scientists using both their
personal and FDA e-mail accounts. Title III, as amended by the Electronic Communications
Privacy Act of 1986, governs the authority of the Government to intercept electronic
communications, such as email. Title III requires that the Government obtain a court order prior
to engaging in real-time interception of email, as would be required for real-time interception of
telephone calls. Among the exceptions to the court order requirement is the “consent exception,”
which requires an analysis similar to establishing whether REP exists. In particular, the consent
exception analysis would be used to determine whether an individual gave consent by agreeing
to abide by the terms of FDA’s computer network banner when logging onto FDA’s network.
        The law also limits the Government’s ability to obtain “stored communications.”
Amendments made to Title III by the Stored Communications Act require the Government to
issue a subpoena to an email service provider to acquire emails that have been retrieved by the

26
     See City of Ontario v. Quon, 130 S. Ct. 2619, 2632 (2010).
27
     Quon, 130 S. Ct. at 2630.

                                                                                        24 | P a g e
holder of the email account. To acquire emails that have not been retrieved, the Government
must either issue a subpoena or obtain a warrant depending on how long the email has been in
electronic storage with the email service provider. These provisions are relevant only if FDA
acquired stored personal emails from the five scientists’ email service providers.

The Whistleblower Protection Act

        Although a workplace search may be justifiable under existing Fourth Amendment
principles and under Federal prohibitions on disclosure of information, searches conducted
against those who make disclosures to, for example, Congress or to the press may implicate the
prohibition in the WPA, at 5 U.S.C. § 2302, against retaliation.
        Subsequent to public revelations of the FDA’s surveillance of its five employees, OSC
issued a memorandum in which it stated that “agency monitoring specifically designed to target
protected disclosures to OSC and IGs is highly problematic.” This admonition was based in part
on the provisions of the WPA, which prohibit taking or not taking any personnel action with
respect to a Government employee because of any disclosure of information that the employee
reasonably believes to evidence violations of law or regulation, waste and abuse, or a specific
danger to public health. Section 2302 defines “personnel action” to include disciplinary or
corrective actions or any other significant change in working conditions and is therefore
sufficiently broad to include targeting an employee for computer surveillance. Notably, the
statute does not specify to whom a disclosure must be made for whistleblower protections to be
available, and thus the statute has been interpreted to cover disclosures made to media outlets, in
addition to OIGs, OSC, and Congress. 28
    Section 2302 contains one important caveat regarding the applicability of whistleblower
protections: an agency is prohibited from taking (or not taking) a personnel action only when the
disclosure made by the employee is not specifically prohibited by law. Therefore, the statutory
prohibitions on certain disclosures, described immediately below, are relevant to the applicability
of this caveat to FDA’s monitoring of its employees.

Prohibitions on the Disclosure of Information by FDA Employees

       Several statutory and regulatory provisions limit the ability of FDA employees to share
agency information with others outside the agency. Violation of any of these provisions may
provide a legitimate basis for an internal investigation. The Federal criminal statute generally

28
  See e.g., Horton v. Department of the Navy, 66 F.3d 279 (Fed. Cir. 1995) (stating, “The purpose of the
Whistleblower Protection Act is to encourage disclosure of wrongdoing to persons who may be in a position to act
to remedy it, either directly by management authority, or indirectly as in disclosure to the press.”).

                                                                                                    25 | P a g e
limiting disclosures, at 18 U.S.C. § 1905, provides for removal and for criminal penalties for the
disclosure of trade secrets and confidential business information where such disclosure is not
authorized by law. The Federal Food, Drug, and Cosmetic Act has additional criminal
provisions at 21 U.S.C. §§ 331(j) and 333, which prohibit the disclosure of trade secrets (but not
confidential business information) submitted to the FDA in accordance with FDA approval
processes. The prohibition in section 331(j) does not apply to disclosures made to Congress or
its committees, but it does apply to disclosures to the media. FDA implemented and expanded
on section 331(j) in its regulation at 21 CFR § 20.61. The regulation states that neither trade
secrets nor CCI is available for public disclosure outside of the procedures set forth in the
regulation and provides definitions for “trade secrets” and “CCI.”
        Finally, FDA has implemented disclosure restrictions with respect to PMAs. “The
existence of a PMA file may not be disclosed by FDA before an approval order is issued to the
applicant unless it previously has been publicly disclosed or acknowledged.” 21 CFR § 814.9.
Furthermore, “If the existence of a PMA file has not been publicly disclosed or acknowledged,
data or information in the PMA file are not available for public disclosure.” Similarly, 21 CFR §
807.95 prohibits the disclosure of the existence of a PMA, except under the specified
circumstances.




                                                                                       26 | P a g e
Appendix D: Department Comments




                                  27 | P a g e
Appendix D, continued




                        28 | P a g e
Appendix D, continued




                        29 | P a g e
